            OFFICE OF
     THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION

  DISABILITY DETERMINATION
 SERVICES’ BUDGET EXECUTION
 AND REPORTING OF LIMITATION
 ON ADMINISTRATIVE EXPENSES
            FUNDS

 November 2001       A-15-99-52001




                 .
                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
  o   Promote economy, effectiveness, and efficiency within the agency.
  0   Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
  0   Review and make recommendations        regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
  0   Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                       ~ SI!c(,
                                                      OCi
                                                       /};~
                                                      W/ts~~
                                                      \~    1IIIIII ~t
                                                           J\rlST¥-t'

                                        SOCIAL              SECURITY

MEMORANDUM                               Office of the Inspector         General

Date:    NOV 2 6 2001                                                                 Refer To:

To:     Jo Ann,e ~. Barnhart
        Commissioner   of Social Security



        Inspector   General


Subject:Disability Determination Services' Budget Execution and Reporting of Limitation on
        Administrative   Expenses Funds (A-15-99-52001)



        OBJECTIVE

        Our objective was to evaluate the Social Security Administration's (SSA) policies and
        procedures for State disability determination services' (DDS) budget execution and
        reporting of obligations.1

        BACKGROUND

        SSA is primarily responsible for implementing the general policies needed to process
        Disability Insurance (Dl) and Supplemental Security Income (SSI) disability claims.
        Disability determinations under both Dl and SSI are performed by an agency in each
        State according to SSA regulations. These State agencies are referred to as DOSs.
        SSA reimburses the OOSs for 100 percent of their allowable administrative costs.

        Each year, SSA determines the amount of the DDS funding authorization. The DDS
        funding authorizations are allocated from SSA's Limitation on Administrative Expenses
        (LAE) appropriations for DDSs to perform disability determinations. The LAE
        appropriations restrict the availability of LAE funds for obligation by SSA to that Federal
        fiscal year (FY). SSA's funding levels for each DDS are reported on the "State Agency
        Obligational Authorization for Disability Programs" (Form 872). For SSA's purpose, the
         Form 872 creates an obligation in SSA's accounting records. After each Federal
         FY quarter, DDSs submit a "State Agency Report of Obligations for SSA Disability
         Programs," (Form 4513), reporting the obligations it incurred. Guidance for the DDSs'
        financial management is contained in SSA's Program Operations Manual System
         (POMS) Section Dl 39506.



         1 POMS section Dl 39506.803 defines obligations as "payments for goods or services received and
         commitments to pay for goods or services ordered. Obligations result from...ordering services; e,g.,
         consultative examinations; contractual services; and similar transactions, which require the present or
         future disbursement   of money (emphasis added)."
Page 2 – Jo Anne B. Barnhart


Previously, SSA requested the Office of Audit to audit the administrative costs claimed
by the Ohio Bureau of Disability Determinations (OH-BDD) for FYs 1995 through 1997.2
During that audit, we determined that purchase orders for electronic data processing
(EDP) and other equipment, amounting to $4.3 million, were issued by OH-BDD after
the close of the respective Federal FYs.

SCOPE AND METHODOLOGY

We met with SSA Headquarters staff in Baltimore, Maryland, as well as, Chicago’s
Regional staff and OH-BDD officials in Columbus, Ohio. We analyzed correspondence
between SSA and OH-BDD. We reviewed a legal opinion issued by SSA’s Office of
General Counsel (OGC). We also reviewed:

·     Applicable SSA POMS;
·     Rehabilitation Services Commission (RSC) financial management guidance;
·     Funding documentation, Forms 872, maintained by the Office of Disability (OD) for
      all DDSs for the period FY 1995 through 1999; and
·     Data collected during our audit of administrative costs claimed by OH-BDD.

We conducted our field work during October 1998 through April 2000. Our audit was
conducted in accordance with generally accepted government auditing standards.

Our methodology included reviewing applicable Federal laws, regulations, and
instructions pertaining to the LAE appropriation and administrative costs incurred by
DDSs. Our audit of internal controls was limited to the SSA POMS, Section DI 39506,
pertaining to DDS financial management and flow of documents relating to fund
authorizations.

RESULTS OF AUDIT
SSA’s budget execution and reporting regulations and policies need clarification. SSA’s
budget practices did not provide sufficient time for the DDSs to complete the
procurement process before the Federal fiscal yearend. As a result, DDSs were
incorrectly obligating SSA LAE funds after the Federal fiscal yearend. Further,
OH-BDD did not accurately report the status of obligations on its Forms 4513.

BUDGET EXECUTION POLICIES FOR DDS OBLIGATIONS

OH-BDD did not have the authority to create new obligations using SSA LAE funds
after the end of the Federal FY. While conducting the administrative cost audit for
OH-BDD, we found that Federal funds were used to create new obligations after the
end of the Federal FY. Specifically, $4.3 million in LAE funds were obligated by


2
 Audit of Administrative Costs Claimed by the Ohio Rehabilitation Services Commission for Its Bureau of
Disability Determinations, (A-13-98-51007) dated September 1999. RSC is the parent agency for the
OH-BDD.
Page 3 – Jo Anne B. Barnhart


OH-BDD after the Federal FY for which the funds were authorized. We examined
27 vouchers for EDP and other equipment purchases over $10,000. Nineteen of the
27 vouchers, totaling $4.3 million, related to obligations/purchase orders issued after
the close of the Federal FY. In some instances, the funds were not obligated until as
much as 3 years after the close of the Federal FY.

                  Comparison of OH-BDD Obligations to LAE Year Charged
       Year                                    LAE Year Charged by OH-BDD
    Purchase
      Order          Obligation
     Issued           Amount            1994          1995         1996         1997
     FY 1996               $3,231,056    $380,714     $2,850,342           0           0
     FY 1997                1,027,293      17,280        889,516    $120,497           0
     FY 1998                   44,883           0              0      10,350     $34,533
      Total3               $4,303,232   $397,994     $3,739,858    $130,847      $34,533

OH-BDD believed it had authority to continue obligating SSA funds after the Federal FY
closed. The OH-BDD managers stated that the funding for the purchase of EDP
equipment was not received in sufficient time to go through the procurement process
before the Federal FY ends. They also stated EDP equipment funding is not usually
received until the last week of the Federal FY. OH-BDD managers believed the SSA
POMS gave them the flexibility to follow the State’s rules for incurring and reporting
obligations.

Funding of DDS EDP Purchases

We analyzed the FY 1995 through FY 1999 funding patterns for the SSA authorizations
of DDS purchases of EDP hardware and software (see Appendix B). SSA frequently
authorized funding for EDP and other equipment too late in the FY. In fact, 52 of the
54 DDSs received some funding at least once on September 15th or later during the
period FY 1995 through FY 1999. The total late funding for all DDSs’ purchases of
EDP and other equipment was $30,568,346 during this period. We believe this practice
makes it unlikely that DDSs can enter into valid obligations before the Federal fiscal
yearend. SSA’s funding pattern supported OH-BDD’s position that the funds were
obtained too late to reasonably expect DDSs to complete the procurement process and
issue obligating documents (purchase orders). However, we did not believe that late
funding provides authority for the DDSs to create new obligations after the Federal
fiscal yearend.

POMS Procedures

OH-BDD managers cited POMS as giving it the authority to issue new obligations after
the Federal fiscal yearend. Specifically, OH-BDD cited POMS section DI 39506.806 A.,
which states:
3
    Figures are rounded.
Page 4 – Jo Anne B. Barnhart


       “It is the desire and intent of SSA that State agencies operate within the
       framework of rules, regulations, and procedures promulgated by the State for
       establishing and charging obligations to appropriate accounting periods.

       The information presented in this section should be followed by the State agency
       if not in conflict with the fiscal directives of the State. Where a conflict exists, the
       DDS should inform the regional office and attach copies of pertinent directives.”

We disagree with OH-BDD’s interpretation of the POMS. Our interpretation is that the
POMS instructs DDSs to bring conflicts between the POMS and State rules to the
attention of SSA so that SSA can address the issue. It does not give the DDSs the
authority to issue new obligations after the Federal fiscal yearend. Also, other POMS
sections clearly address the availability of funding authority. For example, POMS
section DI 39506.803 A.2. clearly states that: “Amounts available for obligation in one
year, to the extent they exceed actual obligations, may not be added to the new
obligation limit for the ensuing fiscal year.”

To resolve the issue of the validity of creating new obligations after the Federal
fiscal yearend, we pursued further authoritative guidance.

Management Directive

We identified a memorandum, dated December 12, 1995, written by the SSA Deputy
Commissioner for Finance, Assessment, and Management to an SSA regional
commissioner which, in reference to a DDS’s use of SSA LAE funds, stated:

       “…after that FY expires, you cannot legally approve the State using those
       FY 1994 funds for a new purpose (EDP workstations)...Like SSA components,
       the States must spend their funds (i.e., incur obligations) by the end of the FY,
       otherwise, the unobligated portion of their approved spending plan can never be
       spent…Your proposal to obligate the FY 1994 LAE after its period of availability
       for obligation expired cannot be approved….

       A comparable issue recently surfaced when the first continuing resolution for
       FY 1996 expired at midnight of November 13, 1995. Legal counsel for the Office
       of Management and Budget confirmed that DDSs could not use unspent funds to
                                           th
       continue operations on November 14 , since funds provided to the DDSs at the
       beginning of FY 1996 were no longer available for obligation.”

Legal Opinion

We reviewed an OGC legal opinion regarding whether DDSs had the authority to create
new obligations after the close of the Federal FY. In that opinion, OGC stated that the
POMS amply reflects the fact that a State DDS’ obligational authorization is available
on an annual basis, coincides with the Federal FY, and thus, expires at the conclusion
of the Federal FY.
Page 5 – Jo Anne B. Barnhart


After evaluating the applicable POMS, Deputy Commissioner’s memorandum, and the
OGC legal opinion, we have concluded that the DDSs may not use LAE funds to create
new obligations after the end of the Federal FY for which they were appropriated.

However, we are not recommending recovery of the funds because: 1) the DDS used
the funds for an appropriate purchase to the betterment of SSA’s programs and
2) because we believe the State acted, although in violation of POMS, in accordance
with informal guidance from SSA officials. Also, the State provided written evidence
that SSA not only knew the purchases were made after the Federal FY (the violation)
but even offered advice to the State as to possible vendors and equipment (see
Reporting of Obligations below).

SSA’s budgetary practices for funding all DDSs need to be improved to avoid leading
the DDSs into inappropriate use of LAE funds. SSA needs to review and revise its
POMS governing the financial management of the DDSs, specifically, clarifying the
budgetary requirements relating to obligating Federal funds.

OH-BDD practice of obligating funds goes against the accounting concept of reliability.
To be reliable, accounting data must be verifiable, have representative faithfulness, and
                4
have neutrality. We found no independent basis for OH-BDD’s charging accounting
periods other than funds were available for the period charged. We even found
instances of individual purchase orders being split and charged to multiple years. We
believe the selection of the Federal FY charged was arbitrary in nature.

REPORTING OF OBLIGATIONS

OH-BDD did not accurately report the status of its obligations on the Form 4513. For
example, OH-BDD reported planned obligations as actual obligations on its
Forms 4513. This practice causes misleading and inaccurate financial reporting of
DDS operations to SSA. Such inaccurate reporting inhibits SSA’s ability to properly
fund the DDSs’ needs in a given Federal FY. As a result, the DDSs may be overfunded
in 1 year and underfunded in another. OH-BDD, as stated above, reported that at least
$4.3 million was already obligated when in fact, no purchase order or other
commitment-to-pay was issued. Additionally, SSA had not reconciled known,
unobligated funding to the amounts reported on the Form 4513.

Reporting Unrealized Obligations

OH-BDD reported on its Form 4513 that all its funds had been obligated by the close of
the Federal FY. OH-BDD budget staff told us they included planned purchases as
obligations as a justification for amounts reported as obligated. Such inaccurate
reporting inhibits SSA’s oversight of DDS financial management when, for example,
determining if funds can be reallocated to cover immediate needs in other areas.



4
 Based on the Statements of Financial Accounting Concepts No. 2 Qualitative Characteristics of
Accounting Information issued by the Financial Accounting Standards Board, May 1980.
Page 6 – Jo Anne B. Barnhart


The reporting of planned obligations as actual obligations on the Form 4513 is also not
in keeping with the U.S. General Accounting Office (GAO) Standards for Internal
Controls in the Federal Government (GAO/AIMD-00-21.3.1, pages 4 and 5). GAO
standards state:

     “Internal control should provide reasonable assurance that the objectives of the
     agency are being achieved in the following categories: …Reliability of financial
     reporting, including reports on budget execution, financial statements, and other
     reports for internal and external use.”

SSA Oversight Lapse

OD had documentation indicating that OH-BDD had not actually obligated the funds for
the purchase of EDP and other equipment as reported on the Forms 4513. SSA
provided funding of $3.3 million to OH-BDD for the purchase of EDP equipment on
September 25, 1995. OH-BDD reported on its Form 4513, dated October 20, 1995,
that it had obligated the EDP equipment funding by September 30, 1995. OH-BDD
wrote to SSA, on February 28,1996, to discuss planned purchases of $4.3 million for
EDP and other equipment. Per the OH-BDD correspondence, the $4.3 million
consisted of (i) $3.3 million funding authorized on September 25, 1995 (for FY1995);
(ii) $700,000 left from a previously funded pilot of a local area network; and
(iii) $263,000 of funds taken from OH-BDD but promised to be restored when needed.
SSA subsequently denied OH-BDD those specific planned purchases because the
proposed equipment exceeded the funding guidelines already provided and consisted
of equipment different than proposed at the time the funding was provided. Eventually,
these funds were used to make purchases of EDP equipment that, presumably, met
SSA’s approval.

The above sequence of events led us to conclude that OH-BDD had not entered into
valid obligations as reported on the Forms 4513. OD was aware that the OH-BDD had
not accurately reported the status of its funds/obligations for the purchase of EDP and
other equipment as reported on the Forms 4513. In fact, we believe that OH-BDD
could construe its violation of the POMS as being allowed and ratified by SSA since
SSA had not objected to its plans to use the LAE funds to create new obligations after
the FY ended.

We believe that OD and the regional offices need to better enforce SSA’s formal,
written policies and procedures as outlined in POMS for DDS financial management.
OH-BDD could not have obligated all of its funding if funding remained for future
purchases of EDP and other equipment, as described in correspondence between OH-
BDD and SSA. Based on correspondence from OH-BDD, the amounts reported as
obligated could not have been accurate. In fact, OD should have been concerned
when the DDS reported that $3.3 million had been obligated only 5 days after the
funding was provided.
Page 7 – Jo Anne B. Barnhart


CONCLUSIONS AND RECOMMENDATIONS
SSA needs to review its regulations and POMS governing the financial management of
the DDSs and clarify the financial requirements relating to the obligation of SSA funds.
SSA needs to scrutinize the amounts of obligations being reported by the State DDSs
to ensure the reasonableness of the reported amounts.

We recommend SSA:

1. Revise its budget practices for authorizing DDS purchases of EDP hardware and
   software so as to allow DDSs sufficient time to establish valid obligations (contracts)
   before the Federal fiscal yearend.

2. Revise its regulations and/or POMS, as needed, to clearly define the budgetary
   financial management requirements and limitations imposed on DDSs’ use of
   Federal funds.

3. Determine if the Chicago Regional Commissioner should direct OH-BDD to
   reclassify the EDP and other equipment purchases to the Federal FY in which the
   purchase orders were issued, as noted in our audit. Based on the results of that
   determination, direct all regional commissioners to review DDS EDP and other
   equipment purchases to assure consistent and appropriate recording.

4. More closely review the Forms 4513 submitted by the DDSs, as part of SSA’s fiscal
   oversight, to see if the reported financial data correspond with other known
   information and call into question any discrepancies.

AGENCY COMMENTS

SSA agreed with three of our four recommendations (i.e. recommendations 1, 2 and 4).
Regarding recommendations 1 and 2, SSA states in its response that its in the process
of revising POMS to address our concerns regarding revisions to certain budgetary
practices. Regarding recommendation 4, SSA states it is also in the process of revising
SSA Form-4513 to provide more detail of DDS expenditures to address DDS fiscal
oversight concerns. SSA disagreed with our recommendation 3. (See Appendix C for
the full text of SSA’s comments to our draft report)
Page 8 -Larry   G. Massanari


THE OFFICE OF THE INSPECTOR                GENERAL'S         RESPONSE

We believe the Agency's response that it disagrees with our recommendation 3 is the
result of SSA misinterpretation. Recommendation 3 asks SSA to make a determination
regarding the FY reclassification of certain equipment purchases. SSA's determination
not to reclassify those expenditures is not inconsistent with the recommendation.




                                            .Jdo.<-[~
                                       r       James    Go. Huse,   JF!




                                                                                          -.:;

                                                                                        'i!


                                                                                        -::~


                                                                                          ~
                                                                                        "~~
                                       Appendices
Appendix A – Acronyms

Appendix B - SSA’s Yearend Funding of Disability Determination Services
             Electronic Data Processing Purchases

Appendix C - SSA Comments

Appendix D - OIG Contacts and Staff Acknowledgements
                                                                 APPENDIX A

Acronyms

DDS         Disability Determination Services
DI          Disability Insurance
EDP         Electronic Data Processing
Form 872    State Agency Obligational Authorization for Disability Programs
Form 4513   State Agency Report of Obligations on SSA Disability Programs
FY          Fiscal Year
GAO         General Accounting Office
LAE         Limitation on Administrative Expenses
OD          Office of Disability
OGC         Office of General Counsel
OH-BDD      Ohio – Bureau of Disability Determination
POMS        Program Operations Manual System
RSC         Rehabilitation Services Commission
SSA         Social Security Administration
SSI         Supplemental Security Income
                                                                                                     Appendix B
        Social Security Administration Yearend Funding of Disability Determination Services
                              Electronic Data Processing Purchases
      Fiscal Year (FY) Funded (Date Social Security Administration (SSA) provided Disability Determination Services (DDS) funding)
State                   FY1995                FY1996                  FY1997                 FY1998                FY1999

Connecticut            9/29/95   $    80,794                            9/30/97   $    27,662   9/30/98   $     7,617
Maine                  9/29/95        31,720    9/25/96   $    15,178   9/30/97        53,100
Massachusetts          9/29/95        48,716                            9/30/97       340,826
New Hampshire          9/29/95        11,150    9/25/96         4,900   9/30/97         8,000
Rhode Island           9/29/95        20,487    9/20/96         1,404   9/30/97        13,370   9/30/98        88,114
Vermont                9/29/95        26,500                            9/30/97        18,120   9/30/98        19,286   9/23/99   $    69,231
New Jersey             9/29/95       796,651    9/30/96       105,791   9/30/97        55,070   10/1/98        17,000   9/30/99        30,000
New York               9/29/95       177,000    9/30/96       657,390   9/30/97       116,220   10/1/98        22,400   9/30/99            25
Puerto Rico            9/21/95       218,801    9/30/96        59,520   9/30/97        37,755   10/1/98        14,730
Delaware               9/29/95        51,018    9/30/96         4,520                           9/23/98         3,995   9/30/99        59,000
District of Columbia                                                    9/30/97        35,870
Maryland                                        9/30/96        19,440
Pennsylvania           9/29/95       202,990    9/30/96        79,300   9/30/97        65,600   9/30/98       163,591
Virginia                                        9/30/96       224,200   9/30/97        37,465                           9/30/99       340,800
West Virginia          9/29/95       195,411    9/30/96        25,108   9/30/97        26,213   9/30/98        16,962   9/30/99       240,280
Alabama                9/26/95       101,121    9/30/96        67,944   9/30/97       132,160   9/30/98         9,960
Florida                                         9/30/96       332,446   9/30/97       149,532   9/29/98        36,930   9/30/99        13,000
Georgia                9/26/95       495,707    9/30/96       105,736   9/30/97        48,950   9/30/98        26,695
Kentucky               9/29/95         8,465    9/30/96       814,251   9/30/97        74,070   9/30/98        22,864   9/30/99        57,800
Mississippi            9/29/95        60,000    9/30/96        40,936   9/30/97        82,575   9/30/98        26,584
North Carolina         9/29/95       457,060    9/30/96        46,066   9/30/97        26,620   9/30/98        22,852   9/30/99        30,000
South Carolina                                  9/30/96        13,200   9/30/97        50,222   9/30/98        47,056
Tennessee                                                      43,795                  17,500   9/30/98       399,976
Illinois               9/28/95       692,307    9/30/96        47,333   9/30/97       102,285   9/30/98       529,864   9/30/99        92,000
Indiana                                         9/30/96        95,386   9/30/97       350,345   9/30/98        10,650
Michigan               9/29/95        28,064    9/30/96       197,758   9/30/97       160,008   9/30/98         4,080
Minnesota              9/28/95       85,906     9/30/96       829,778   9/30/97        93,442   9/30/98        63,747   9/30/99        54,000

                                               FY Funded (Date SSA provided DDS funding)
                                                                  B-1
State                   FY1995                   FY1996                   FY1997                  FY1998                  FY1999

Ohio                    9/25/95      3,371,712 9/30/96         108,950 9/30/97         184,370 9/30/98           667,350 9/30/99        28,540
Wisconsin              9/29/95            9,500 9/30/96         95,401 9/30/97          19,775 9/30/98           226,610
Arkansas               9/29/95           30,000 9/30/96         94,670 9/30/97          29,370 9/30/98            40,897
Louisiana               9/29/95          99,839 9/30/96        429,152 9/30/97         118,340 9/30/98            35,030
New Mexico                                       9/27/96        53,890 9/30/97          27,870 9/30/98            17,280
Oklahoma                9/29/95           8,485 9/26/96        194,300 9/30/97          42,048 10/20/98           27,914
Texas                  9/29/95          110,883 9/30/96        692,126 9/30/97         956,059 9/30/98            67,000 9/30/99        30,000
Iowa                   9/29/95          440,178 9/30/96        194,057 9/30/97         253,944 9/30/98            14,730
Kansas                 9/29/95           77,566 9/30/96         26,489 9/30/97          21,461 9/30/98            13,450
Missouri               9/29/95           27,900 9/30/96        744,786                           9/30/98         221,791
Nebraska                9/29/95         604,798 9/30/96         38,060 9/30/97          56,477
Colorado                                          9/30/96      116,961 9/30/97         118,467 10/6/98            77,545 9/30/99         9,700
Montana                9/28/95           41,003 9/30/96         54,447 9/30/97           6,120
North Dakota                                                                                                               9/30/99     181,850
South Dakota                                      9/30/96       62,531 9/30/97          70,695
Utah                                              9/30/96       11,200 9/30/97          32,400                             9/30/99      30,000
Wyoming                                                                   9/30/97          250                             9/30/99     181,000
Arizona                 9/27/95          89,334 9/30/96        215,561 9/30/97          38,703 9/29/98            47,383
California              9/29/95      3,414,000 9/30/96          41,985 9/30/97          16,868 9/30/98           106,529 9/30/99        19,720
Guam
Hawaii                  9/25/95          11,205 9/30/96          9,300 9/30/97           1,954 9/23/98            53,175 9/30/99         30,000
Nevada                  9/29/95          48,431 9/30/96         17,800 9/30/97          60,345 9/30/98            27,954 9/30/99         30,000
Alaska                                            9/30/96        8,590                                                     9/30/99       33,150
Idaho                                            9/30/96        48,361 9/30/97          21,617 9/30/98            54,997 9/30/99         22,674
Oregon                 9/26/95            8,926 9/30/96        457,935 9/30/97          46,482 9/30/98           415,856 9/29/99         47,515
Washington              9/15/95         248,926 9/30/96        421,813 9/30/97         126,677 9/30/98           139,576 9/30/99        331,570
Total                              $12,432,554             $7,969,745              $4,373,272               $3,810,020               $1,961,855
Total all years                    $30,547,446
NOTE: Blanks indicate that either no allotments were made for Electronic Data Processing purchases or that all allotments were
made before September 15th.




                                                                    B-2
                  APPENDIX C

Agency Comments
                                       SOCIAL         SECURI1Y

MEMORANDUM


                                                                               Refer To:   SIJ-3
          September   10,2001

To:       JamesG. Ruse, Jr.
          Inspector General

          Larry G. Massanari
                                         ~ecutjty


Subject   Office of the Inspector General Draft Report, "Disability Detennination Services' (DDS) Budget
          Execution and Reporting of Limitation on Administrative ExpensesFunds"
          (A-15-99-5200 I }-INFORMA TION


          Thank you for the opportunity to review and comment on the subject report. We appreciate
          OIO's efforts in conducting this review. Our comments are attached.

          Staff questions may be directed to Janet Carbonara on extension 53568.

          Attachment:
          SSA Response
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "DISABILITY DETERMINATION SERVICES’ BUDGET EXECUTION AND
LIMITATION ON ADMINISTRATIVE EXPENSES FUNDS" (A-15-99-52001)

We appreciate OIG’s efforts in conducting this review and the opportunity to comment on the
draft report. Our comments on the recommendations are provided below.

Recommendation 1

SSA revise its budget practices for authorizing DDS purchases of EDP hardware and software so
as to allow DDSs sufficient time to establish valid obligations (contracts) before the Federal
fiscal yearend.

Comment

We agree and are currently in the process of revising the POMS to allow the States up to
six months after the close of the Federal fiscal year to obligate funds.

Recommendation 2

SSA revise its regulations and/or Program Operations Manual System (POMS), as needed, to
clearly define the budgetary financial management requirements and limitations imposed on
DDSs’ use of Federal funds.

Comment

We agree. POMS instructions, which will clearly define the budgetary financial management
requirements and limitations imposed on DDSs’use of Federal funds, are currently in the
clearance process.

Recommendation 3

SSA determine if the Chicago Regional Commissioner should direct OH-BDD to reclassify the
EDP and other equipment purchases to the Federal FY in which the purchase orders were issued,
as noted in our audit. Based on the results of that determination, direct all Regional
Commissioners to review DDS EDP and other equipment purchases to assure consistent and
appropriate recording.

Comment

We disagree. While the audit report concludes that the Ohio Bureau of Disability Determinations
(OH-BDD) failed to comply with the POMS provisions, it does not conclude, that SSA obligated
those funds in the absence of a bona fide need of the BDD for the equipment in the FYs in
question. The subsequent untimely obligation of those funds by the BDD outside of the confines
of the respective FYs does not vitiate SSA's otherwise legitimate obligation of funds for this
purpose (See Matter of: Small Business Administration, B-229873, November 29, 1988). Such
action by the BDD does conceivably constitute a breach of the terms of its contractual
arrangement with SSA. Since SSA's obligation of funds in the respective FYs was based on bona
fide needs existing in those FYs, we do not believe reclassification is legally appropriate.



                                              C-1
Recommendation 4

SSA more closely review the Forms 4513 submitted by the DDSs, as part of SSA’s fiscal
oversight, to see if the reported financial data correspond with other known information and call
into question any discrepancies.

Comment

We agree and already routinely review the DDSs’ Form 4513s and request clarification of
anomalies. Additionally, we have revised the Form 4513 to provide more detail on the DDS
expenditure. The revised Form 4513 is in the clearance process along with revised POMS
instructions.




                                               C-2
                                                                      Appendix D

OIG Contacts and Staff Acknowledgements
OIG Contacts

  Frederick C. Nordhoff, Director, Financial Management and Performance Monitoring
    Audit Division, (410) 966-6676

  Carl Markowitz, Audit Manager, (410) 965-9742

Acknowledgements

In addition to those names above:

  Lance Chilcoat, Team Leader
  Sigmund Wisowaty, Auditor-in-Charge
  Philip Rogofsky, Audit Manager
  Annette DeRito, Program Analyst

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-15-99-52001.
                           DISTRIBUTION SCHEDULE



                                                                            No. of
                                                                            Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Systems Audit Division                                             1
 Director, Financial Management and Performance Monitoring Audit Division     1
 Director, Operational Audit Division                                         1
 Director, Disability Program Audit Division                                  1
 Director, Program Benefits Audit Division                                    1
 Director, General Management Audit Division                                  1
Issue Area Team Leaders                                                      25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                 1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                             1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees,third
parties, and by SSA employees in the performance of their duties. Or also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA ' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
